-_______________________ l.

V

Supreme Court. U.S.
FILED

JUN t 9 2021

no.

21-310

OFFICE OF THE CLERK

In The

Supreme Court of tfje fflntteti Stated
AMYR. GURVEY, US PATENTEE,

Petitioner Pro Se,
v.
COWAN, LIEBQWITZ & LATMAN, PC,
CLEAR CHANNEL COMMUNICATIONS, INC.
LIVE NATION, INC., INSTANT LIVE CONCERTS, LLC.
NEXTTICKETING INCORPORATED, WILLIAM BORCHARD, MIDGE HYMAN, BAILA
CELEDONIA,
CHRISTOPHER JENSEN, DALE HEAD, STEVE SIMON, NICOLE ANN GORDON, SUSAN
SCHICK,
MICHAEL GORDON, DOES I-X INCLUSIVE,

Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
28 USC §1651(a)
PETITION FOR A WRIT OF CERTIORARI

Amy R. Gurvey,
US Patentee Pro Se
Petitioner Pro Se
315 Highland Avenue
Upper Montclair, NJ 07043
(917) 733-9981

Furman Kornfeld & Brennan
61 Broadway 26th FL
New York, NY 10006
(212) 867-4100

Hinshaw & Culbertson, LLP
800 Third Avenue 13th FL
New York, NY 10022
(212) 471-6200

GINA

-

^

E-QUES TION S -PRES E N-T-E D
1. Because of a 64-year split between the US Supreme Court, the
Federal Circuit and eight United States circuit courts, the
Supreme Court must revisit and settle the law and iterate the
factors to be considered to determine which appeals court - the
Federal Circuit or the local circuit - has the duty - during a
combined antitrust and patent infringement lawsuit - to issue
supervisory writs of mandamus under the All Writs Act, 28 USC
§1651 for a district court’s ongoing usurpations of duty when the
relief sought is not clearly “in aide of ’ the Federal Circuit’s
“arising under” appellate jurisdiction? \See, In re Innotron
Diagnostics. 800 F. 2d 1077 (Fed. Cir. 1986), citing La Buy v.
Howes Leather Co.. 352 US 249, 255 (1957); see also Supervisory
and Advisory Mandamus under the All Writs Act, 86 Harv. L. Rev.
595 (1973)]; See Petitioner’s Memorandum of Law, Section
VII, pp. 32, infra;
2. Whether because the Federal Circuit issued the first order on
June 23, 2020 finding that the Second Circuit abused discretion in
deciding a previous 2017 arising under patent appeal to orders of
SDNY on summary judgment concerning the Cowan Liebowitz &
Latman law firm defendants only, did not transfer that appeal to
the Federal Circuit and prematurely closed the case, which court
now - the Second Circuit or the Federal Circuit still has the duty
to grant retroactive mandamus orders against the district court
still owing to Petitioner including reversing sua sponte deletion
from the docket of Petitioner’s Rule 60(b) and 15 motion datestamped and docketed April 22, 2010 to reinstate defendant Live
Nation and make all named defendants answer for strict liability
infringement and other patent damages?
3. Whether because the Federal Circuit issued the first order on
June 23, 2020 finding that the Second Circuit abused discretion in

-d«eidin^-grprevious-201-7-arising-under-patent-appeal-to-orders-of—
SDNY on summary judgment concerning the Cowan Liebowitz &
Latman law firm defendants only, closed the case and did not
transfer that appeal to the Federal Circuit under 28 USC§ 1631,
which court now - the Second Circuit or the Federal Circuit still
has the duty post judgment to grant retroactive mandamus orders
against the district court to disqualify the Cowan and Live Nation
defendants’ defense at Hinshaw & Culbertson, as required by NY’s
Judiciary Law Part 1240.6(d) no later than October 1, 2016, which
date was five months prior to the district court’s improper order of
summary judgment motions in chief from these attorneys? [See, In
re Innotron Diagnostics, 800 F. 2d 1077 (Fed. Cir. 1986), citing La
Buy v. Howes Leather Co., 352 US 249, 255 (1957); see also
Supervisory and Advisory Mandamus under the All Writs Act. 86
Harv. L. Rev. 595 (1973); see also. Christianson v. Colt Industries
Operating Corn.. 486 US 800 (1988)(Brennan, J.); Grant Williams
v. Citicorp, 659 F. 3d 208 (2d Cir. 2011)]
4. Same as 2, but whether the Supreme Court must now reverse the
order of the Second Circuit finding “mandamus cannot suffice for
an appeal” and closing the case prematurely for the third time
because mandamus relief still owing to Petitioner by the Second
Circuit remains outstanding and Petitioner’s constitutional access
to recover patent strict liability infringement damages against the
Live Nation defendants in this lawsuit was impeded by the
district court in violation of the First and Fifth Amendments of
the United States Constitution?
5. Whether the district court’s sua sponte deletion of Petitioner’s
FRCP Rules 60(b), 15 vacatur motion with amended complaint
post patent issuance docketed April 22, 2010 pursuant 35 USC
§271, 284, 285, 286 violated due process when the amended
complaint was in full compliance with Form 18 of the Appendix to

^-he-R-ales-of-Federal-Givil-Proce dure-and-me ans-that~mandamus—
relief still owing to Petitioner must now ordered against the
Second Circuit and its judgment entered April 1, 2021 must be
reversed? \K-Tech Telecommunications v. Time Warner Cable, 714
F. 3d 1277 (Fed Cir. 2013); Anza Technology v. Mushkiru 934 F. 3d
1359 (Fed Cir. 2019); Grant Williams v. Citicorp., 659 F. 3d 208
(2d Cir 2011); Reedy v. Scott, 90 US 352 (1874)]
6. Whether because the Second Circuit failed to grant mandamus
relief to reverse the SDNY’s sua sponte order in 2015 finding
Petitioner is a practicing attorney in New York and must be held
to a higher standard when Petitioner is not a NY attorney but a
pro se litigant, must be reversed as per se prejudicial and a
violation of due process, and a writ of certiorari against the
Second Circuit granted to reverse the 2017 summary judgment
orders of the district court on other grounds including to grant
sanctions for in-court fraud and deceit against the Hinshaw and
Culbertson defense lawyers who corrupted both SDNY and state
files during the case? See, e.s.. Amalfitano v. Rosenberg, 12 NY 3d
8 (2009), 533 F. 3d 117 (2d Cir 2007).
7. Whether because the SDNY sua sponte found during hearing in
violation of due process on November 29, 2016 that Petitioner
should file a separate lawsuit seeking Ex parte Young1 relief to
compel the state files and patent ethics complaints found by the
Appellate Division to have been entered and corrupted sua sponte
by Hinshaw defense attorneys without a warrant, whether
retroactive disqualification of the attorneys back to October 1,
2016 must still be granted under Judiciary Law Part 1240.6(d)
and the summary judgment orders they wrongfully induced
through fraud and crimes reversed?

209 US 123 (1908)
in

lawsuit seeking prospective injunctive relief against the state
attorney grievance committee (“AGC”) officers to compel
production of the corrupted state files including Petitioner’s
patent ethics complaints against the Cowan defendants for
withholding her complete USPTO patent files in defiance of 37
CFR 2.10, 2.19, 10.66, 11.116, required the district court not only
to disqualify defense attorneys by October 1, 2016 but also assess
severe sanctions for in-court fraud and deceit in favor of
Petitioner?2 3 Judiciary Law Part 1240.6(d); Ex parte Young, 209
US 123 (1908); Amalfitano v. Rosenberg, 12 NY 3 8 (2009), 533 F.
3d 117 (2d Cir 2007). See also, Virginia Office of Protection and
Advocacy v. Stewart, 563 US 247 (2011)(Scalia, J.)
9. In this 13-year Sherman/Clayton antitrust, unfair competition
breach of fiduciary duty and strict liability patent infringement
litigation pursuant to 15 USC §§1-12, et seq., 35 USC §§271, 284,
285, 286 brought by Petitioner-US Patentee4 against DOJ2 Guryev v. Garry, DiFiore. Hinshaw & Culbertson, et al.. 19-cv-4739 (EDNY)
(pending)
3 On January 8, 2020, the DC District Court and the US Dept, of Justice
sanctioned the merged entity, defendant Live Nation Entertainment, with its
merged partner Ticketmaster, for breach of the consent decree and competitive
impact statement issued January 25, 2010, that was the subject of Petitioner’s Rule
60(b) motion and amended complaint post patent issuance on October 13, 2009.
(Gurvey US Patent No. 7603321; D647910S) The EDNY is currently assessing
criminal sanctions against Ticketmaster. 21-212, 214 (EDNY)
4 Petitioner is the sole named inventor of valuable standard essential ticketing
and content management patents [Gurvey US Patent Nos. 7603321; D647910S]
that issued on October 13, 2009, and November 1, 2011. The patents were delayed
for issuance for 9 years based on USPTO practitioner conflict of interest violations
by defendant Live Nation attorneys at defendant Cowan Liebowitz & Latman who
were also representing Petitioner’s US patent applications before the USPTO
without disclosing conflicts of interest. Cowan defendants abandoned Petitioner’s
2002 ticketing patent applications based on a conflict of interest admitted to the
USPTO in 2003. Defiance of practitioner mandates, 37 CFR 2.10, 2.19, 1066. 11.
116, 1.36(b); 1.324, caused forfeiture of the first US and EPO applications published
in 2004. Petitioner’s first patents and enforcement rights against defendant Live
IV

«an€t-i<3fi€<j-eeneert premoter-and-dominant-venue-owner------- -——
defendant Live Nation, Inc.5, its subsidiary Instant Live Concerts,
LLP and the parties’ common USPTO attorneys at Cowan
Liebowitz & Latman, PC, whether 2d Circuit’s order entered April
1, 2021 finding that “mandamus will not suffice for an appeal” and
closing the case prematurely for the third time, must again be
reversed because Petitioner was entitled to two (2) early writs of
mandamus against the SDNY under the All Writs Act, 28 USC
§1651(a), that were not in aide of the Federal Circuit arising
under jurisdiction and set the stage for ongoing violations of
Petitioner’s First and Fifth Amendment constitutional rights for
the duration of the entire lawsuit?
10. Whether because Federal Circuit found on June 23, 2020 that the
Second Circuit “abused discretion” in not awarding early
mandamus relief to Petitioner and not transferring Petitioner’s
2017 “arising under” patent appeal to its court, the Supreme Court
must now reverse the April 2, 2021 order of the Second Circuit
closing the case and finding that “mandamus will not suffice for an
appeal” because Petitioner’s Rule 60(b) and 15 motion seeking leave
to amend the complaint post patent issuance during the case was
illegally deleted sua sponte from the docket by district court officers
after it was printed and date stamped in a previous appeal
appendix before the Second Circuit and was in full compliance with
Nation temporarily forfeited and delayed until October 13, 2009. Live Nation’s
significant NYC contacts and jurisdictional fraud in this case were established by
orders entered the DC District Court and Dept, of Justice in the parallel 2009
merger proceedings with Ticketmaster on January 25, 2010, based on Live Nation’s
own admissions in that parallel litigation. US u. Ticketmaster and Live Nation,
2010 WL 975407, 975408 that resulted in Petitioner’s Rule 60(b) motion and
amended complaint date stamped and docketed on April 22, 2010.
5 On January 8, 2020, defendant Live Nation was sanctioned $80m by the DC
District Court and Dept, of Justice for the same antitrust violations alleged in
Petitioner’s original complaint in this lawsuit and ten years of defiance of the
competitive impact statement and consent decree ordered in 2010.

Fo¥m-i-S?—K-Feeh-Telecommunications-v.-Time-Warner^Cable,_7_l 4__
F. 3d 1277 (Fed. Cir 2013); Anza Technology v. Mushkin, 934 F. 3d
1359 (Fed. Cir. 2019); Grant Williams v. Citicorp., 659 F. 3d 208 (2d
Cir 2011); Reedy v. Scott, 90 US 352 (1874).
11. Whether the Second Circuit had a duty to grant Petitioner, a Pro
Se litigant who is not a New York attorney, mandamus relief, equal
protection and reasonable accommodations including certification
to the NY Court of Appeals to determine the date of the Hinshaw
defense attorneys’ mandatory disqualification under NY’s Judiciary
Law Part 1240.6(d) and to reverse the district court’s clear and
ongoing usurpations of duty? See, Flo & Eddie v. Sirius XM Radio,
821 F. 3d 265 (2d Cir 2016); NY Judiciary Law Parts 1240.6(d),
1240.18
12. Whether because both the DC District Court and Dept, of Justice
each sanctioned defendant Live Nation in 2010 and again in 2020
for the same antitrust violations alleged in Petitioner’s wellpleaded complaint and on January 25, 2010 confirmed Live
Nation’s jurisdictional fraud and deceit in denying under oath its
significant NY contacts before the SDNY in 2008, the Supreme
Court must reverse the Second Circuit’s sua sponte order closing
the case and not adjudicating the deleted Rule 60(b), 15 motion also
based on res judicata and collateral estoppel and allow Petitioner to
recover long-overdue strict liability willful infringement damages
against defendant Live Nation?
13. Whether because multiple sua sponte orders of the district court
caused premature closing of Petitioner’s combined antitrust and
patent infringement lawsuit three times, whether all sua sponte
orders must be reversed because orders that implicate the
constitutional rights of litigants, can never be granted sua sponte.
Link v. Wabash R. R. Co., 370 US 626, 630-631 (1962).
VI

ii. PARTIES TO THE PROCEEDING
Pursuant to Rule 14.1(b), the following list identifies all the parties
appearing in the SDNY.
The Petitioner Pro Se in the instant Petition is Amy R. Gurvey,
a US patentee and sole inventor of ticketing management systems and
apparatuses disclosed in issued US patents. Gurvey US Patent Nos.
7603321; D647910S. Petitioner is not a NY attorney.
The Respondents include: (i) Live Nation, Inc., the world’s largest
promoter of concerts; (ii) its subsidiary defendant Instant Live Concerts,
LLC; (iii) Mike Gordon of Phish; and (iv) Cowan Liebowitz & Latman,
PC the parties common USPTO attorneys.
Respondents who appeared in Petitioner’s mandamus petitions to the
Federal Circuit in 2020 and to the Second Circuit in 2021 were only the
Cowan Liebowitz & Latman law firm defendants. Respondents Live
Nation and Instant Live Concerts, being duly served, defaulted.

iii. CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6, Petitioner, a Pro Se litigant and US patentee,
states as follows:
Petitioner is the sole inventor and owner of US Patent
Nos.7603321; D647910S and other pending applications in a
ticketing management portfolio comprised of proprietary
secondary ticketing and ticketing management methods and
apparatus technologies, the patents are in Petitioner’s sole name
and have not been assigned. Petitioner is not a non-governmental
corporation. Petitioner has no parent corporation or shares held by
a publicly traded company.

Vll

Contents
i. QUESTIONS PRESENTED................................

i

ii. PARTIES TO THE PROCEEDING..................

vii

iii. CORPORATE DISCLOSURE STATEMENT

vii

v. TABLE OF AUTHORITIES.............................

ix

OPINIONS BELOW................................................................

xii

STATEMENT OF JURISDICTION......................................

xiii

US CONSTITUTION AND STATUTORY PROVISIONS.,

xiv

I. STATEMENT OF THE CASE.........................................

1

II. REASONS FOR GRANTING THE WRIT....................

,5

III. STATEMENT OF RELEVANT FACTS........................

7

IV. OTHER REASONS THE WRIT OF CERTIORARI...
,21

MUST ISSUE
V. SPLIT IN THE LAW

,25

VI. MEMORANDUM OF LAW......

,32

VII. CONCLUSION...........................

.38

CERTIFICATE OF COMPLIANCE

,40

CERTIFICATION OF SERVICE....

41

vm

Stable of authorities
CASES
Amalfitano v. Rosenbers, 12 NY 3d 8 (2009), 533 F. 3d 117 (2d Cir 2007 ..

Ill, IV

Anderson v. First Dept. Disciplinary Committee, State of NY. et al, 614 F.
Supp. 2d 404 (SDNY 2009)(..............................................................................

17
passim

Anza Technology v. Mushkin, 934 F. 3d 1359 (Fed. Cir. 2019)
Bankers Life & Casualty Co., v. Holland, 356 US 379, 382 (1953)

33

Bell Atlantic, supra, 127 S. Ct

37
passim

Christianson v. Colt Industries Operating Corp., 488 US 800 (1988)

30

Erickson v. Pardus, 551 US 89 (2007)

passim

Grant Williams v. Citicorp, 659 F. 3d 208 (2d Cir. 2011)
Guryev v. Garry, DiFiore, Hinshaw & Culbertson, et al.. 19-CV-4739 (EDNY)
(pending)............................................... .....................................................................

IV

K-Tech Telecommunications u. Time Warner Cable. 714 F. 3d 1277 (Fed. Cir
passim
2013)
vi, 6, 35

Link v. Wabash R. R. Co.. 370 US 626, 630-631 (1962)
McZeal v. Sprint Nextel Corp., 501 F. 3d 1352, 1357 (Fed Cir. 2007

37

Phonometrics Inc., v. Hospitality Franchise Systems, 203 F. 3d 790, 794
(Fed. Cir. 2000); 501 F. 3d 1352, 1357..........................................................

37
iii, vi, 11, 12

Reedv v. Scott. 90 US 352 (1874)
Roche v. Evaporated Milk Ass’n, 319 US 21, 26 (1943)

33
passim

Rule 60(b)
SCA Hygiene Product Aktiebolag v. First Quality Baby Products, 137 S.Ct.
954 (2017).................................................................................................................
Ticketmaster. 21-212, 214 (EDNY)

30
IV

Tickets.com v. Ticketmaster, 2003 WL 21406289 (CD CA 2003)

IX

8

US-v^-¥iek-e-tm<t&ier-and-Live-Nation—2QiQN\fV-97540'7—9'15408
Virginia, Office of Protection and Advocacy v. Stewart, 563 US 247
(2011)(Scalia, J.)....................................................................................

■v-7r8

iv, 17

STATUTES
15 USC §1-1

iv, 12

15 USC§ 1125

xvii, 9

28 USC § 1631

xv, 20

28 USC § 41

34

28 USC §1294

33

28 USC §1295

xiv, 32, 33

28 USC §1631

ii, 31,35
xm

28 USC§ 1254(1)

33

35 USC §§ 145, 146

passim

35 USC §271, 284, 285, 286

36

35 USC §282

iii, 17, 18

209 USC 123 (1908)................

passim

NY’s Judiciary law Part 1240
OTHER AUTHORITIES
02 US PCT 14192

23

FRCP Rule 56

35

9,18

US Patent No. 6,614729
US Patent Nos. 7603321: D647910S

IV, Vll

RULES
37 CFR §§2.10, 2.19, 10.66, 11.116, 1.36, 1.324

passim
2

FRAP 10 (e)
x

FRCE-Eor-m-4-8

37-

FRCP Rule 26

17

Rule 12(b

10

Rule 14.1(b)

Vll

Rule 29.6

Vll

xviii, 10

Rule 59(b);
TREATISES
Supervisory and Advisory Mandamus under the All Writs Act, 86 Harv. L.
Rev. 595 (1973).......................................................................................................

passim

CONSTITUTIONAL PROVISIONS
First and Fifth Amendments

li

xi

OPINIONSBELOW
Appendix (“A”) Rule 14.1(i)(i)(ii)
2d Cir. Case No. 20-1986
Order entered April 1, 2021 (pp.) A1
Fed. Cir. Case No. 20-1620
Order entered on June 23; 2020 A2-14
(Appending requested 2020 SDNY orders)
2d Cir. Case No. 17-2760
Order 1-25-2019 A15-19
Order 5-29-2018 A20-21
SDNY Case No. 06cvl202
Order 1-31-2017 A22-23
Order 12-1-2016 A24-25
NY Appellate Division First Dept. M-5775
Order entered 4-21-2016 A26-27*
* (Currently on appeal to the New York Court of Appeals)
SDNY Case No. 06cvl202
Order 9-15-2017 A28-41
2d Cir. Case No. 0902185:10-4111
Order 2-10-2012 A42-48
SDNY Case No. 06cvl202
Order 9-20-2010 A49
Order 9-20-2010 A50-53
Order 4-27-2009 A54
Order 4-24-2009 A55-69

SDN¥-Oase-No—Q6cv-l-2Q2-(Gont’d)
Order 3-17-2009 A70-78
Amy R. Guryev US Patents in Suit
Gurvey US Patent 7603321 Oct. 13, 2009 A79-101
Gurvey US Patent D647910S Nov. 1, 2011 A102-103

STATEMENT OF JURISDICTION
Jurisdiction over this petition seeking a writ of certiorari to the
final order of the Second Circuit entered April 1, 2021, in Case No.
17-2760 is invoked pursuant to 28 USC§ 1254(1) and 28 USC
§1651(a).

XUl

US CONSTITUTION AND STATUTORY PROVISIONS
A. The Fifth Amendment of the United States Constitution
provides as follows:
“No person shall be deprived of life, liberty or property
without due process of law, nor shall private property be
taken for the public use without just compensation”.
B. 28 USC§ 1338 provides as follows:
“(a) The district courts shall have original jurisdiction of any
civil action arising under any Act of Congress relating to
patents.
(b) The district courts shall have original jurisdiction over
any civil action asserting a claim of unfair competition when
joined with a substantial and related claim under the
copyright, patent, plant variety protection or trademark
laws.”
C.

28 USC §1295 provides as follows:
“(a) The United States Court of Appeals for the Federal
Circuit shall have exclusive jurisdiction (l)Of an appeal from a final decision of a district court of the
United States, in any civil action arising under, or in any
civil action in which a party has asserted a compulsory
counterclaim arising under any Act of Congress relating
to patents or plant variety.”

XIV

-D:—2$-USU-§i65T(a) -prov-ides-as -follows:______________________
“(a) The Supreme Court and all courts established by Act of
Congress may issue all writs necessary or appropriate in aid
of their respective jurisdictions and agreeable to the usages
and principles of law”.
E. 28 USC § 1631 provides as follows:
“Whenever a civil action is filed in a court as defined in
section 610 of this title or an appeal... and the court finds
that there is a want of jurisdiction, the court shall, if it is in
the interest of justice, transfer such action or appeal to any
other court...in which the action or appeal could have been
brought at the time it was filed or noticed. And the action or
appeal shall proceed as if it had been filed in or noticed for
the court to which it is transferred on the date upon which it
was actually filed in or notices the court from which it is
transferred.
F.

35 USG §271 provides as follows:
(a) “...Whoever without authority makes, uses, offers to sell,
or sells any patented invention, within the United States or
imports into the United States any patented invention
during the term of the patent therefor, infringes the patent.
(b) Whoever actively induces infringement of a patent shall
be liable as an infringer.
(c) Whoever offers to sell of sells within the United States or
imports into the United States a component of a patented
machine, manufacture, combination or composition, or a
material part of the invention, knowing the same to be
especially made or especially adapted for use in an
infringement of such patent, and not a staple article or
commodity of commerce suitable for substantial nonXV

-m-MiigiHg—usershall-be-liai)le-as-a-contributor-y_infringer.”
(d) No patent owner otherwise entitled to relief for
infringement or contributory infringement of a patent shall
be denied relief or deemed guilty of misuse or illegal
extension of the patent right by reason of his having done
one or more of the following: (1) derived revenue form acts
which if performed by another without his consent would
constitute contributory infringement of the patent;... (3)
sought to enforce his patent rights against infringement or
contributory infringement; ... or (5) conditioned the license of
any rights to the patent or the sale of the patented product
on the acquisition of a license to rights in another patent or
purchase of a separate product, unless, in view of the
circumstances, the patent owner has market power in the
relevant market for the patent or patented production o
which the license or sale is conditioned.” ...
(e) Whoever without authority imports into the United
States or offers to sell, sells, or uses, within the United
States a product which is made by a process patented in the
United States shall be liable as an infringer, if the
importation, offer to sell, sale, or use of the product occurs
during the term of such process patent... A product which is
made by a patented process will, for purposes of this title,
not be considered to be so made after - (1) it is materially
changed by subsequent processes; or (2) it become a trivial
and nonessential component of another product.
(f) As used in this section, the term “whoever” includes any
State, any instrumentality of a State, and any officer o
employee of a State or instrumentality of a State acting in
his official capacity. Any State, and any such
instrumentality, officer, or employee, shall be subject to the
provisions of this title int eh same manner and to the same
extent as any nongovernmental entity.
(g)As used in this section, an “offer for sale” or an “offer to
XVI

sell—by-a-person-ot-her-t-han-t-he-patentee-or-any-designee-Gfthe patentee, is that in which the sale will occur before the
expiration of the term of the patent.
G. 35 USC §284 provides as follows:
“Upon finding for the claimant, the court shall award the
claimant damages adequate to compensate for the
infringement, but in no event less than a reasonable royalty
for the use made of the invention by the infringer, together
with interest and costs as fixed by the court.
When the damages are not found by a jury, the court shall
assess them. In either event, the court may increase the
damages up to three times the amount found or assessed...
The court may receive expert testimony as an aid to the
determination of damages or of what royalty would be
reasonable under the circumstances.”
H.

35 USC §285 provides as follows:
“The court in exceptional circumstances may award
reasonable attorney fees to the prevailing party.”

I. 35 USC §286 provides as follows:
“...No recovery shall be had for any infringement committed
more than six years prior to the filing of the complaint or
counterclaim for infringement in the action.”
J. 15 USC §1125 prohibiting false designations of origin, false
descriptions and dilution forbidden, provides as follows:
(a)(1) Any person who, on or in connection with any goods or
services or any container for goods, uses, in commerce any
word, term, name, symbol, or device, or any combination
thereof, or any false designation of origin, false or misleading
XVII

iieseript-ion-ofTact—orTalse-ormiisleading-representation-offact, which(A) is likely to cause confusion, or to cause mistake, or to
deceive as to the affiliation, connection of association of such
person with another person, or as to the origin, sponsorship
or approval of his or her goods, services or commercial
activities by another person, or
(B) in commercial advertising or promotion, misrepresents
the nature, characteristics, qualities or geographic origin of
his or her or another person’s goods, services or commercial
activities, shall be liable in civil action by any person who
believes that he or she is or is likely to be damaged by such
act.
K. FRCP Rule 60(b) provides as follows:
(a) On motion and just terms, the court may relieve a party
or its legal representative from a final judgment, order, or
proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable
diligence, could not have been discovered in time to move
for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged;
it is based on an earlier judgment that has been reversed or
vacated; or applying it prospectively is no longer equitable;
or
(6) any other reason that justifies relief.
(b) Timing and Effect of the Motion.

xvm

fi-)-?t7n'i7ig'—A-motion-uTider-RTiie-60(b)~must-be-'made-within
a reasonable time and for reasons (1), (2), and (3) no more
than a year after the entry of the judgment or order or the
date of the proceeding.
(c) Other Powers to Grant Relief. This rule does not limit
a court’s power to:
(1) entertain an independent action to relieve a party from a
judgment, order, or proceeding; or
(2) set aside a judgment for fraud on the court.
L.

NY’s Judiciary Law Part 1240, 1240.6(d) effective October 1, 2016,
provides as follows:
“No former member of the Committee or member of the
Committee’s professional staff, may represent a respondent
or complainant in any matter in which the Committee
member or staff member participated personally while in the
Committee’s service.”

XIX

It-STATEMEN-T-OF-THE-CASE

This Petition seeking a writ of certiorari against the United States
Court of Appeals for the Second Circuit is filed by US ticketing/event
content management patentee Amy R. Gurvey6 in response to an order
entered April 1, 2021, prematurely closing the combined patent
infringement and antitrust lawsuit for the third time in thirteen years
and finding that “mandamus will not suffice for an appeal”. The
Federal Circuit transferred the case back to the Second Circuit on June
23, 2020, finding the Second Circuit abused discretion in not
transferring a previous 2017 “arising under” patent appeal to the
summary judgment orders of the SDNY to the Federal Circuit because
the outstanding mandamus relief owed to Petitioner “not in aid” of the
Federal Circuit’s arising under jurisdiction at the end of the case. The
Second Circuit getting the case back, then closed the case sua sponte for
the third time, without granting mandamus relief, patent discovery and
strict liability infringement damages conditionally due Petitioner
pursuant to 35 USC §271 against all named defendants.

6 Petitioner’s attorney in this lawsuit, Squitieri & Fearon, LLP, moved to
unilaterally withdraw ex parte after Petitioner won binding arbitration against the
Cowan Liebowitz & Latman, PC law firm defendants on August 4, 2009, on certain
contract counts. Arbitration was won after the case was already prematurely closed
on April 27, 2009, without discovery. Unilateral withdrawal was then improperly
granted to Squitieri sua sponte in September 2010 during the first appeal before the
Second Circuit and without the benefit of Petitioner’s opposition papers. The case
was remanded in February 2012 and Petitioner had no lawyer at that time.
Petitioner’s docketed and date stamped amended complaint and Rule 60(b) motion
had by that time been deleted ex parte from the docket with not notice to Petitioner.
1

--------This-Pet4t4on~now-seeks-to-resolve-the-64^vear^old split among the
US Supreme Court, the Federal Circuit and eight local appeals courts
as to which court - the Federal Circuit or the local district court - has
the duty to issue mandamus orders for ongoing usurpations of
administrative duties by the district court during a combined antitrust
and patent infringement litigation when the relief sought is not clearly
“in aid of’ the Federal Circuit exclusive appellate jurisdiction at the end
of the case. [See, e.g., In re Innotron Diagnostics, 800 F. 2d 1077 (Fed.
Cir. 1986), citing La Buy v. Howes Leather Co., 352 US 249, 255 (1957);
see also Supervisory and Advisory Mandamus under the All Writs Act,
86 Harv. L. Rev. 595 (1973)]; See Petitioner’s Memorandum of Law,
Section pp. infra.1
Petitioner argues that the Second Circuit was required to grant
mandamus relief to Petitioner five times since 2010 based on clear and
ongoing usurpations of duty by the SDNY including deleting sua sponte
Petitioner’s strict liability infringement amended complaint post patent
issuance from the SDNY docket sometime before 2012 after the motion
was date-stamped and filed on April 22, 2010. The SDNY and then
Second Circuit did ever not hear the amended complaint. In the first
appeal to the first order prematurely closing the case by the district
court on April 27, 2010, the Second Circuit held the notice of appeal to
the first appeal was filed five months before patent issuance and
therefore could not be heard under FRAP 10 (e). However, in that
appeal the Second Circuit also did not reverse the district court’s sua
sponte grant of withdrawal to Petitioner’s attorney, Squitieri & Fearon,
2

LLPr
relief as a pro se litigant. There have been two more of these premature
orders closing the case without any relief granted to Petitioner in
violation of the Fifth Amendment for 13 years including the most recent
orders entered 2019 and 2021.
The facts are undisputed that the Second Circuit failed to grant
mandamus relief against the SDNY five times since remanding the case
in 2012, decided to wait until the end of the case to deal with the sua
sponte deletion of the docketed amended complaint and the separate
issue that defense attorneys at Hinshaw & Culbertson, LLP were
required to be disqualified from the case no later than October 1, 2016
based on the Judiciary Law (“JL”) Part 1240 amended statutes enacted
by New York’s Legislature on October 1, 2016. At all times relevant,
defense attorneys at the Hinshaw and Culbertson law firm, were
serving on the Appellate Division First Dept, attorney grievance
committee (“AGC”) and were involved with getting “whitewashed”
Petitioner’s 2005 state grievances seeking return of her complete
USPTO patent files from the Cowan Liebowitz & Latman law firm
defendants. The Cowan defendants abandoned her early patent
applications based on an admitted conflict of interest with defendant
Live Nation and another client Legend Films of‘San Diego and moved
twice in 2003 and 2007 to unilaterally withdraw from Petitioner’s
USPTO patent applications but were never granted that right because
of defiance of the governing conflict of interest practitioner statutes. 37
CFR 2.10, 2.19, 10.66, 11.116, 1.36
3

--------Now-w-it-ii-t-h€-C0Htinu€d-withholding-of-mandamus-relief_still_____
owing Petitioner and being found empirically material and essential by
the Federal Circuit to Petitioner’s right to protect her US patents and
get paid for their 15 years of willful infringement by defendant Live
Nation, the Supreme Court must order a writ of certiorari to reverse the
third order prematurely closing the case and find that until the
infringement amended complaint is adjudicated, the case cannot be
closed. The Federal Circuit transferred the case back for the Second
Circuit to issue the mandamus relief owing based on law of the case; but
in its April 1, 2021, order, the Second Circuit still failed to do so and sua
sponte dismissed the case again. The case, therefore, has since been
bandied back and forth for four years with Petitioner still being denied
all access to the district court in violation of the First and Fifth
Amendment to get paid for her valuable standard essential ticketing
management patents by willful and contributory infringers.
Petitioner respectfully now seeks a Writ of Certiorari to prevent
manifest injustice and egregious forfeiture to Petitioner, and because
the Second Circuit still owes mandamus relief to Petitioner that in
abuse of discretion, was not granted earlier in the case. By this
petition, therefore, Petitioner seeks to resolve the split among the US
Supreme Court, the Federal Circuit and the circuit appeals courts over
which appellate court has the duty to issue supervisory writs of
mandamus under the All Writs Act, 28 USC§ 1651(a) that are not
clearly “in aid of’ the Federal Circuit’s arising under appellate
jurisdiction or fall within the gray area as to proper categorization. See
4

Innotron Diagnostics, 800 F. 2d 1077 (Fed. Cir. 1986) citing La Buy v.
Howes Leather Co., 352 US 249, 255 (1957) see also, Supervisory and
Advisory Mandamus under the All Writs Act, 86 Harv. L. Rev. 595
(1973). If mandamus relief is not granted by at least one appeals court
at critical early stages based on a district court’s clear and ongoing
usurpation of power in deciding procedural motions in a combined
antitrust and patent litigation, a patentee, as in this case, could
potentially suffer manifest injustice, forfeiture of patent interests and
years of patent protection. This makes the instant petition of national
import to the patent industry as a whole.

II. REASONS FOR GRANTING THE WRIT
Often, it is unclear during the case whether the final orders of the
district court will be in the exclusive “arising under” jurisdiction of the
Federal Circuit at the end of the lawsuit; or whether, as in this case, the
district court intentionally deleted sua svonte from the docket
Petitioner’s amended complaint to avoid an appeal to the Federal
Circuit In this case, therefore,7 mandamus orders, are still
unconditionally due and owing to Petitioner and the Second Circuit
must be told it could not sweep this case under the table for the third
time after the Federal Circuit found a clear abuse of discretion.
The instant case, therefore, is a perfect vehicle to resolve the split
existing for more than 60 years. Here, several mandamus orders owed
7 See also, Christianson v. Colt Industries Operating Cory., 486 US 800
(1988)(Brennan, J.)
5

-t-e-Pet-it-ion€r-s-me^20-lQ-were-bQth^m_aicLo/” and “not in aid of” the_____
Federal Circuit’s arising under jurisdiction and the Second Circuit,
finding certain usurpations by the district court repugnant, wiped its
hands of its mandamus duties altogether.
The United States Supreme Court must now grant certiorari to
order the writ, iterate Petitioner’s remedies at this late stage, and
identify which unlawful supervisory orders were entitled to mandamus
relief in favor of Petitioner earlier in the case and which appeals court
had the duty to grant that relief. This Court should also resolve
whether each appeals court — the Second Circuit or the Federal Circuit
had mandamus duties on particular motions, which motions are in aid
of the Federal Circuit’s arising under jurisdiction at the end of the case,
and in which chronological order those motions were required to be
adjudicated. K-Tel Telecommunications v. Time Warner Cable, 714 F.
3d 1277 (Fed. Cir. 2013). In this case, it was per se prejudicial to delay
issuing mandamus orders to disqualify defense counsel for the
infringers to the end of the case. The end result of the court’s
withholding of essential mandamus relief at early stages of the
litigation to improper sua sponte acts and orders, saw a complete and
total forfeiture of Petitioner’s constitutional rights to protect her
patents in violation of the Fifth Amendment before the district court.
Orders that implicate the constitutional rights of litigants, can never be
granted sua sponte and must be immediately reversed. Link v. Wabash
R^IlCo., 370 US 626, 630-631 (1962).

6

IIL—STATEMENT OF RELEVANT FACTS
In particular, this case involves infringer defendant Live Nation’s
contumacious and ongoing defiance of a consent decree and competitive
impact statement defendant signed before the DC District Court and
Dept, of Justice on January 25, 2010, as a condition of its 2009 merger
with Ticketmaster. At this time, defendant Live Nation was already
outsourcing Petitioner’s US ticketing patent claims (then pending for
issuance) with ETS Eventim of Germany and engaging in unfair
competition by falsely issuing press releases that it had a monopoly on
distributing live concert recordings based on a recording patent it
acquired in 2005 that was quickly invalidated by the USPTO in 2007. 8
In addition, by February 2008, defendant Live Nation was importing an
infringing primary ticketing system from ETS Eventim and had
implemented Petitioner’s proprietary technology at its NYC venues House of Blues, Irving Plaza and Roseland Ballroom. Therefore, as
soon as the first ticketing and authenticated content distribution
patents issued to Petitioner on October 13, 2009, defendant Live Nation
became a willful infringer under multiple sections of 35 USC §271 and
liable to Petitioner for treble strict liability damages.

Notably, the competitive impact statement and consent decree
signed by defendant Live Nation in 2010 were also defied for 10 years.
On January 8, 2020, sanctions of $lmil per violation were assessed by
the Dept, of Justice and the DC District Court and the Clayton
8 US u. Ticketmaster and Live Nation. 2010 WL 975407, 975408 (DC Dist. 2010)
7

untitrust-mairdates-extende4-tLrough-2Q26.—The-sanctions-imposed____
were for the same antitrust violations allege4 by this Petitioner in her
claims for 4amages in her early complaints file4 between 2006 an4
2010. Petitioner’s antitrust claims were solicite4 for public comment
an4 poste4 on the DOJ Me4ia and Entertainment website as Entry “E”
in February 2010. Yet the same allegations were dismisse4 by the
district court on April 27, 2009. The mandates precluded and still
preclude defendant Live Nation Entertainment (now merged with
Ticketmaster) from withholding ticket data from companies entering
defendant’s owned, operated, and dominant share of serviced venues to
conduct non-ticketing businesses.9 Ticket data is not copyrightable, and
Ticketmaster already lost a significant lawsuit on this issue in the CD
California.10 However, most recently in 2021, Ticketmaster was sued
by the US Dept, of Justice before the Eastern District of New York
seeking criminal sanctions for defendant’s ongoing attempts to steal
ticketing data from competitor’s websites. (21-212, 214)(EDNY).

Petitioner’s patent holding company, LIVE-Fi Technologies® and
ticketing subsidiary, Fan-Task-Tix™ with offices in California and New
Jersey, is retained by artists to provide overlay ticketing platforms for
authenticated distribution of live event and content including charitable
benefit concerts, medical conferences, and symposia. Petitioner’s
proprietary technology and software platforms provide ticketing

9 2010 WL 975408, pp. 8, line 10
10 Tickets.com v. Ticketmaster. 2003 WL 21406289 (CD CA 2003)
8

nverlavs-to-ena-ble-authenticateddransmission and management of_____
event live and virtual content, streams, downloads and other benefits
for those artists and their fan base with full royalty accounting.
Petitioner is the sole inventor and owner of LIVE-Fi’®s US
apparatus and utility patents that are categorized as standard essential
patents (“SEP”s). This means that any subsequent applicant for a
patent in the relevant field will necessarily have to infringe or cite to
Petitioner’s patents as prior art because they disclose the claims for the
minimum essential platforms. Petitioner’s proprietary ticketing
platform is a complete end-to-end management system for live and
virtual events benefitting artists and their fans with direct-to-fan
marketing.

It was alleged in Petitioner’s original complaints, that were duly
filed, date stamped and docketed between 2006-2010, that after LIVEFi®^ contracts with artists were consummated, defendant Live Nation
began willfully infringing Petitioner’s patents’ pending, engaged in
unfair competition by precluding Petitioner’s technology from its
venues, precluding Petitioner from accompanying artists into its
venues, and issuing false and misleading press releases that defendant
had acquired a recording patent that gave it a monopoly on distributing
live concerts in violation of 15 USC§ 1125 (which that patent did not).11
Commencing in 2009, defendant Live Nation admitted to the Dept, of
11 Griner US Patent No. 6,614729 is a master recording patent acquired by
defendant Live Nation and subsidiary defendant Instant Live Concerts, LLC in
2005 that was invalidated by the USPTO in 2007.
9

iJ-iistiee-and-DG-Dist-rict-G0ur-t-in-the-mei,ger-pi‘oceedmgs_witti__________
Ticketmaster, that no later than February 2008 it was importing a
primary ticketing service from ETS Eventim in Germany for its owned
and operated venues in NYC - House of Blues, Irving Plaza and
Roseland Ballroom to compete with Ticketmaster. Yet in April 2008,
defendant falsely swore to the SDNY in fraudulent Rule 12(b) motions
filed by eight Baker Botts attorneys in Texas and New York and Texas
that defendant had “no contacts with NYS” sufficient to confer
jurisdiction to answer Petitioner’s claims.
Petitioner’s Rule 60(b) motion with amended complaint post
patent issuance was then docketed, filed and date-stamped on April 22,
2010. The complaint alleged that defendant Live Nation continued
willful infringement of Petitioner’s issued US patents including with a
new venture partner iTunes in violation of the doctrine of equivalents,
that the Griner patent defendant Live Nation acquired in 2005 was
invalidated by the USPTO in 2007 and that its false press releases
claiming a faux monopoly on distributing live concert recordings
continued after the Griner patent was invalidated. Therefore, contrary
to the Court’s order closing the case, Petitioner stated a false
advertising claim and not a passing off claim, make the court’s
application of a passing off statute of limitation without jurisdictional
discovery, reversible error. Petitioner’s motions for reconsideration,
vacatur and to file the long-awaited amended complaint were then datestamped, filed, and docketed under Rules 59(e), 60(b) on April 22, 2010,
seeking strict liability infringement damages. The patent by then was
being willfully infringed warranting treble damages. Moreover, because
10

•t4i<3-amended-complaint-in-full-compliancG-with.Korm_18.of_the________
Appendix to the Rules of Federal Civil Procedure was deleted sua
sponte by the district court clerk from the docket, mandamus relief still
remains owing to Petitioner against the court to bring defendant Live
Nation back into the case to answer for Petitioner’s claims. K-Tech
Telecommunications v. Time Warner Cable, 714 F. 3d 1277 (Fed Cir,
2013); Anza Technology v. Mushkin, 934 F. 3d 1359 (Fed Cir. 2019);
Grant Williams v. Citicorp., 659 F. 3d 208 (2d Cir 2011); Reedy v. Scott,
90 US 352 (1874).

It was also alleged that the parties’ common USPTO attorneys at
defendant Cowan Liebowitz & Latman defied USPTO practitioner
conflict of interest mandates and abandoned Petitioner’s early patent
applications in 2003, causing forfeiture of Petitioner’s first US and EPO
patent applications published in 2004 and delaying Petitioner’s right to
injunctive relief and to recover damages against defendant Live Nation.
12 Before patent issuance revival and reissue proceedings were
necessary to save the abandoned disclosures (continuing),
demonstrating that Petitioner’s damages had to be compensated and
that Petitioner had strict liability claim for contributory infringement
against the Cowan defendants. Defendant Live Nation was noticed
several times that defendant and its subsidiary defendant Instant Live
Concerts, LLP had been using the issued patent claims since 2004
based on conflicts of interest admitted to the USPTO by the Cowan

12 37 CFR 2.10, 2.19, 10.66, 11.116, 1.36(b), 1.324; 35 USC 256
11

d^fendants-an4-4he4ir-st-respo-nse-sent-to.Petitioner bv defendant Live
nation’s executive vice president, Stephen Prendergast in 2005 was that
“anyone could use her patents”.

Therefore, in this case, treble damages for both antitrust
violations and willful infringement were properly awarded Petitioner as
alleged in the filed 2010 amended complaint pursuant to 35 USC §271,
284, 285, 286 and 15 USC §1-12 and Petitioner’s claims relate back to
the operative complaint based on infringement of the same noticed
technology under Federal Circuit law. Anza Technolosv v. Mushkin,
934 F. 3d 1359 (Fed. Cir. 2019); see also, Reedy v. Scott, 90 US 352
(1874).

Defendants Live Nation and the Cowan lawyers then,
immediately committed additional procedural “crimes” before the SDNY
via its defense attorneys Hinshaw & Culbertson, LLP (“H&C”), equity
partner Richard Supple, Esq. and Baker Botts, to get dismissed from
the lawsuit without proper legal justification and prevent the Federal
Circuit from having “arising under” jurisdiction at the end of the case.
Until then, the Cowan defendants had been improperly representing
defendant Live Nation before the USPTO without disclosing conflicts of
interest to Petitioner. Defendants’ attorneys at Hinshaw including
Supple were expressly found by the Appellate Division in an order
entered April 21, 2016, to have entered and corrupted the relevant state
files concerning Petitioner’s 2005 attorney grievances seeking orders to
compel return of her USPTO patent files then being unlawfully
12

withheld—At-all-times-relevant.-SuDple_was an undisclosed officer______
serving on the NYS First Dept, attorney grievance panel. Supple in fact
was personally involved with Petitioner’s ethics complaints. Supple and
his firm, Hinshaw, therefore, breached state fiduciary duties and
conflicts of interest mandates owed to Petitioner as an aggrieved client
by accepting the SDNY retainer for the Cowan defendants and then
also defendant Live Nation in the case.
Effective October 1, 2016, NY’s Legislature enacted NY’s Judiciary
Law Part 1240 making Supple and Hinshaw’s acceptance and continued
retainer for the Cowan attorney defendants unlawful and requiring
mandatory disqualification orders from the SDNY no later than October
1, 2016 (NY’s Judiciary Law Part 1240.6(d)). Instead, the SDNY issued
orders on November 29, 2016, authorizing Supple and Hinshaw to file
summary judgment motions in chief in 2017 without any discovery to
Petitioner and while 50 genuine issues of fact remained open.

In addition, in January 2008, Supple moved ex parte to stay
discovery on unfair competition and patent infringement claims in the
instant case against both defendants Cowan and Live Nation in 2006
and 2008 and the SDNY never adjudicated those motions, never
granted discovery, and Petitioner did not even get jurisdictional
discovery against defendant Live Nation. In addition, the court entered
a sua sponte order for arbitration against the Cowan defendants.
Patent delay damages could not be recovered during arbitration. Based
on these sua sponte orders, Petitioner lost her attorney in 2010. The
attorney, Lee Squitieri, Esq., told Petitioner the case was rigged
13

-becanse4n-2605rdefendant^ive_Natiorrowned-RoseiaTid-Ballroom;-------Irving Plaza, House of Blues, all in NYC, and according to the Dept, of
Justice, by February 2008 was distributing its own ticketing system
imported from ETS Eventim of Germany to these venues. Defendant
also had ownership interests in several iHeart radio stations in NYC
including Z-100 and WLTW 106.7 Lite FM in the same building with
the Cowan defendants.
Therefore, that Live Nation was sua sponte dismissed based on
jurisdictional fraud by the district court on April 27, 2009, and that the
SDNY found that defendant had no NY contacts sufficient to confer
jurisdiction to answer for Petitioner’s claims is ludicrous. In addition,
the SDNY applied a shorter passing off claim statute of limitations that
was never alleged by Petitioner. Instead, the operative complaint
stated a false advertising claim based on defendant Live Nation’s
continuing press releases concerning the invalid Griner recording
patent (fn 8) that had extended statutes of limitation, and the complaint
at paras. 16-18 expressly alleged that the complaint would be deemed
amended to recover infringement damages as soon as the anticipated
US patents issued (which they did on October 13, 2009).

Jurisdictional fraud by Live Nation was established de facto in
consent decree and competitive impact statement entered in the
January 25, 2010, US v. Ticketmaster and Live Nation merger

14

•proceedmgsr-This-was-nme-months-after-the-SDNY_closed the case on
April 27, 2009.13 14
Then, after Petitioner’s Rule 60(b) motion and infringement
amended infringement complaint were docketed, date stamped and filed
on April 22, 2010, the motions were “somehow” deleted sua sponte from
the SDNY docket without any notice in violation of due process of law
and Petitioner’s right of constitutional access to the district court in
violation of the First and Fifth Amendments to protect her intellectual
property and get injunctive relief and strict liability damages against
the named defendants. It is essential that a patentee be allowed access
to the courts enforce US patents as soon as they issue, or serious
prejudice and forfeiture of property will certainly result. In this case,
mandamus relief was immediately owing from one of the two appeals
courts. The question this Honorable Court must answer is which one?
The issued patent made this case an arising under patent case within
the final appellate jurisdiction of the Federal Circuit, but the sua sponte
deletion of the motion by the district court - clearly intentional -could
be deemed to put the case in the gray area and giving the duty to the
Second Circuit.
For the next seven years, 2010-2017, defense attorneys Supple
and Hinshaw & Culbertson (hereinafter “H&C”), attempted to prevent

13 2010 WL 975408
14 While certain claims against defendant Live Nation were dismissed on March
17, 2009, FRCP Rule 60(b)(6) would extend the time to file for vacatur for a
reasonable time, including an additional month “for any other reason” including for
Petitioner to recover for continuing willful infringement of the issued patent with
ETS Eventim of Germany and defendants’ jurisdictional fraud
15

-the -Federal-OircuiCs-e xclusive-ap pe llate -juris dict-io n-at-t-he-end-of-t-hecase, and thereby also to prevent the Federal Circuit from granting
interim writs of mandamus “in aid of its jurisdiction ”.

[See, In re

Innotron Diagnostics, 800 F. 2d 1077 (Fed. Cir. 1986), citing La Buy v.
Howes Leather Co., 352 US 249, 255 (1957); see also Supervisory and
Advisory Mandamus under the All Writs Act, 86 Harv. L. Rev. 595
(1973)]; See Petitioner’s Memorandum of Law, Section pp. infra;

The district court continued usurpations of procedural duty
against Petitioner’s patent interests and appears to have helped the
defendants along. The district court failed to adjudicate Petitioner’s
amended infringement complaint immediately even after ordering
Petitioner pay $10,000 into the SDNY Cashier for a special patent
master (which Petitioner did). The amended complaint was required to
be adjudicated because it related back to the original complaint seeking
treble damages for willful infringement of the same proprietary
disclosures noticed in the original complaints. Anza Technology v.
Mushkin, 934 F. 3d 1359 (Fed Cir. 2019).

On remand from the Second Circuit in 2012, the district court
continued to deny Petitioner all patent discovery including signed
subpoenas against the USPTO. Supple was believed to have ripped the
subpoenas out of the SDNY file room after they were docketed. They
remain ripped out. Discovery rights in favor of Petitioner to compel her
withheld files from the Cowan defendants were not granted. Moreover,

16

the-state-attorney-grievance-panel-ignored-Petitioner’s-complaint—did---not send the responses from the Cowan defendants even though the
patent files are federally mandated documents. FRCP Rule 56; 37 CFR
§§2.10, 2.19, 10.66, 11.116, 1.36, 1.324; 35 USC 256; Virginia Office of
Protection and Advocacy v. Stewart, 563 US 247 (2011)(Scalia J.)(citing
Ex parte Young. 209 US 123 (1908). Ignorance by the state was
attributable to defense attorney Supple being a concealed member of
the AGC panel and violating conflicts of interest mandates. See
Anderson v. First Dept. Disciplinary Committee, State of NY, et aU 614
F. Supp. 2d 404 (SDNY 2009)(Headnotes 15, 16)15
Then, when the district court was presented with an order of the
Appellate Division First Dept, entered April 21, 2016, that Supple had
engaged in additional crimes by entering and corrupting the state ethics
files at the AGC including inserting unserved documents into
Petitioner’s Third Dept, retirement bar files (1998) without a warrant,
the court failed to immediately disqualify Supple and the Hinshaw firm
from defendants’ representation as required by JL Part 1240.6(d).
Petitioner has never seen the inserted files, but they were admittedly
considered by the district court in “nasty”, unjustified orders entered in
2015 and on summary judgment in 2017, ordering Petitioner to pay
$10,000 into the SDNY Cashier for a special master (which Petitioner
did). Petitioner’s motions to compel production of the inserted
15 The current Chief Clerk of the Second Circuit, Catherine O’Hagan Wolfe,
formerly Chief Clerk of the First Dept. AGC, was sued by Anderson in 2007 for her
retaliatory termination in violation of the First Amendment and attempting to
protect the civil rights of aggrieved clients to file ethics complaints against NYC
lawyers.
17

documents-and corrupted Tiles allowablejander Ex parte Young, 209 US
123 (1908) against state AGC officers are now pending in the EDNY
when the SDNY denied Petitioner’s motions to produce the documents
in camera.16
That Supple was involved with Petitioner’s state patent ethics
complaints duly filed against the Cowan defendants, means he could
not appear in the case at all. The court continued to usurp its duties to
Petitioner. Instead of issuing mandatory disqualification orders, the
court did just the opposite, it ordered motion in chief on behalf of the
Cowan defendants by Hinshaw and suggested to Petitioner at the
conference on November 29, 2016 “to consider filing a separate lawsuit
against Supple and the Hinshaw firm for prejudicing her patent
interests in this lawsuit” and to compel the files they corrupted from the
state. The hearing was transcribed and sent to the Second Circuit
seeking mandamus relief1718 or in the alternative, certification of the
16 Pursuant to NY’s Judiciary Law, no individual may enter state grievance files
without a warrant. Judiciary Law Part 1240.18. Documents were inserted by
Supple to attempt legitimize Supple’s corruption of Petitioner’s confidential state
files in his dual capacity as a First Dept, grievance panel officer, which are crimes
and precluded him and his firm H&C from ever appearing on behalf of the Cowan
defendants in this lawsuit. Judiciary Law Part 1240.6(d) The Appellate Division
also confirmed that Supple entered and corrupted Petitioner’s confidential state
files in retaliation for filing the proper ethics complains.
17 US Patent No. 6,614,729 invalidated by the USPTO on application of the
Electronic Frontier Foundation in 2007
18 Contrary to the order of the SDNY closing the case on April 27, 2009,
Petitioner never claimed defendant Live Nation passed off of Petitioner’s pending
patents as its own, but instead false advertising of a non-existent monopoly based
on defendant’s acquisition of the Griner patent (that was invalidated by the USPTO
shortly after it was acquired). Aside from defendant Live Nation’s jurisdictional
fraud in denying all NY contacts that received a sua sponte dismissal order in favor
of defendant on April 27, 2009, the SDNY also improperly found - without discovery
— that Petitioner claims of unfair competition were related to “passing off’
Petitioner’s pending patents, not what was alleged, i.e., intentional issuance of false
18

-d-ate-of-October-l-r^20i67ma^i4atory-disqualifiGation-under-JLJBar.t____
1240.6(d) to the NY Court of Appeals. The motion was ignored.
Apparently, even in a patent litigation disqualification of the infringers’
defense attorney cannot be reviewed until the end of the case, a rule
that should be revisited by the Supreme Court.
On July 6, 2017, the district court sua sponte denied Petitioner’s
cross-motion for summary judgment, granted premature summary
judgment to the Cowan defendants, and still did not assess
infringement damages against defendant Live Nation. Petitioner’s
amended infringement complaint post patent issuance was in full
compliance with Form 18 of the Appendix to the Federal Rules of Civil
Procedure along and was required to be granted. The summary
judgment orders made the case an “arising under” patent case as a
matter of law under the exclusive jurisdiction of the Federal Circuit.
Sua sponte denial of Petitioner’s cross-motion and her amended
complaint not only made this case an “arising under” patent case under
the exclusive appellate jurisdiction of the Federal Circuit as a matter of
law [K-Tech Telecommunications v. Time Warner Cable, 714 F. 3d 1277
(Fed. Cir. 2013], but it bequeathed the Federal Circuit with mandamus
powers “in aid of its jurisdiction” against the district court retroactively.
In re Innotron Diagnostics, 800 F. 2d 1077 (Fed Cir. 1986). However,
the sua sponte deleted amended complaint and the denial of

press releases claiming a non-existent monopoly based on acquisition of the Griner
patent. The Griner patent has nothing to do with ticketing or content management
and set forth a bogus system for recording concerts.
19

dimualificat4on-against4he44inshaw-law.vers.were not the subject of
any mandamus order by the Federal Circuit or the Second Circuit.
The Federal Circuit found that disqualification of attorneys is not
in aid of its jurisdiction, and therefore it was the Second Circuit’s job to
grant mandamus relief starting in 2016 when the district court denied
Petitioner’s motion. The Second Circuit then failed to transfer
Petitioner’s “arising under” appeal to the summary judgment orders
entered in 2017 to the Federal Circuit in response to Petitioner’s 28
USC §1631 motion, exceeded its jurisdiction and prematurely dismissed
the case for the second time without granting the mandamus relief to
Petitioner still owed. Ergo, because Second Circuit was already found
to have decided an arising under appeal improperly and closed the case
in 2019, being sent back the case, the Second Circuit could not avoid
law of the case inconsistently enter an order on April 1, 2021. that
“mandamus would not suffice for an appear. Then the Second Circuit
also failed to fix is incorrect finding that Petitioner is a New York
practicing attorney in the First Dept, (which she is not and never was)
and sweep the case under the carpet. The liberal pleading rules of the
Second Circuit allow a patent owner to replead a complaint even post
judgment and the circuit should have ordered mandamus against the
district court to adjudicate the amended complaint against all
defendants especially defendant Live Nation. Grant Williams v.
Citicorp., 659 F. 3d 208 (2d Cir. 2011)

Since 2017, the case has been transferred back and forth twice in
defiance of Christianson v. Colt Industries Operating Corp., 486 US 800
20

-(4-9881-(-Brennan.-JJ—Once_the case was sent back from the Federal
Circuit on June 23, 2020, the Second Circuit had a duty to grant
mandamus relief to Petitioner, retroactively disqualify defense counsel
and vacate the summary judgment orders entered allowed to have been
wrongfully filed after the mandatory disqualification date.

There is, of course, no dispute Petitioner never had any remedy at
law. Sometime between 2010 and 2012, the essential amended
complaint post patent issuance and her Rule 60(b) motion seeking
vacatur of the sua sponte dismissal of defendant Live Nation based on
jurisdictional fraud were both deleted sua sponte from the SDNY docket
without notice after they were date-stamped and filed on April 22, 2010.
The motions were printed in 2011 in stellar fashion in a Second Circuit
appendix to the first appeal filed in 2009 along with 200 documents
including press releases placed by defendant Live Nation falsely
advertising a monopoly on distributing live concert recordings.19 There
is no doubt, therefore, Petitioner was denied constitutional access to
both the district court and the Second Circuit to protect her valuable
patented properties in violation of the First and Fifth Amendment of
the United States Constitution.

IV. OTHER REASONS THE WRIT OF CERTIORARI
MUST ISSUE
Serious prejudice to a patentee and particularly to a Pro Se

19 09-2185;10-4111 (2d Cir.)
21

paten-tee-wi-ll-ar-ise-whenever-amarlvAnfringeror willful infringer is
strategically attempting to prevent final appellate jurisdiction in favor
of the Federal Circuit by engaging in procedural “crimes” during the
case. As an example, not only did defendant Live Nation engage in
perjury by falsely denying under oath its NY contacts to get dismissed
via fraud, but Petitioner is now forced to appear in this petition as a Pro
Se litigant only because the district court also usurped its duty by
granting sua sponte withdrawal to Petitioner’s lawyers at Squitieri &
Fearon, LLP in September 2010 without allowing Petitioner to file
opposition papers in violation of due process. Petitioner , in fact, was
never served with Squitieri’s motion to withdraw and pro se status was
forced upon her. Petitioner did not choose it.

The grant of unilateral withdrawal to Squitieri in 2010 was itself
suspicious. At the same time, defense attorney Richard Supple, Esq.,
had already moved ex parte to withdraw his previous motion to compel
arbitration. The motion was granted the same day sua sponte on
January 30, 2008. However, somehow arbitration was ordered a year
later with no corresponding motion or order on the docket. Supple then
ripped out from the SDNY file room Petitioner’s applications seeking
signed subpoenas against the USPTO to compel production of
Petitioner’ complete USPTO patent files being unlawfully withheld by
the Cowan defendants. These applications along with Petitioner’s
motion pursuant to FRCP Rules 15, 60(b)(l)-(6) appending the amended
infringement complaint were sent to both the Pro se office and to Judge
Jones’s mailbox. Judge Jones’s mailbox had to be copied because Pro Se
22

-htigants-are-denied-efihngmrivilegesinThe-SDhIX._ Judge Jones then
retired, and the new magistrate Henry Pitman refused to co-sign the
subpoenas in 2013, usurping his duty. The Office of the USPTO
General Counsel told Petitioner the subpoenas were never received.
Then, the magistrate issued an order that he never denied Petitioner
discovery20. Shortly thereafter, it was discovered that Petitioner’s
docketed amended infringement complaint with the Rule 60(b) motion
had both been deleted sua sponte from the SDNY docket sometime after
it was date-stamped, filed, and docketed on April 22, 2010.

On April 21, 2016, the Appellate Division finally found that
Hinshaw defense attorney Supple also entered and corrupted state files
related to ethics complaints duly filed by Petitioner against the Cowan
defendants since 2004. The ethics complaints were copied in Petitioner’s
1998 retirement files in the Appellate Division Third Dept, because
Petitioner was never admitted to the First Dept. That Supple was
dually serving as an undisclosed officer for the First Dept, attorney
grievance panel and was personally involved with Petitioner’s patent
practitioner ethics complaints against the Cowan defendants precluded
Supple and the Hinshaw firm from ever representing the Cowan
defendants in this lawsuit. Judiciary Law Part 1240.6(d), Part

20 There were also non-joinder claims in the amended complaint appending
supporting documents that the Cowan defendants had engaged in fraud in violation
of 37 CFR 1.36(b) in a fraudulent declaration of inventorship filed for another client
Legend Films, Inc. by omitted Petitioner’s name as co-inventor of a PCT application
the Cowan defendants filed for Legend on May 6, 2020. [02 US PCT 14192 based on
60/288929]. The Legend application included reference to Plaintiffs content editing
and film masking technology for colorization of black and white films.
23

T240-1-8.-21—HoweverT-that4he-Appellate-Division-found-t]iat.Supple_____
entered and corrupted Petitioner’s confidential state files by inserting
unserved and forged documents without a warrant demonstrates
crimes. On November 29, 2016, the SDNY told Petitioner during
hearing that while she was denying disqualification of Supple and
Hinshaw & Culbertson, she was still going to entertain their summary
judgment motions in chief on behalf of Cowan and Live Nation
defendants. The Judge also said that “Petitioner should consider filing a
separate lawsuit against them for causing prejudice and damages to her
confidential files and seek orders from the state to compel production of
the files”. 22 It was the duty of the SDNY to compel production of all
patent files in possession of the Cowan defendants and the USPTO
relevant to this case prior to entertaining summary judgment motions,
and that duty was also breached. That the Court ordered Petitioner to
pay $10,000 into the SDNY Cashier for a special patent master and
never hired that master, but closed the case instead, only further
demonstrates that the case was conducted in defiance of all Petitioner’s

21 Unbeknownst to Petitioner, Supple was dually serving on the NYS attorney
grievance panel and was personally involved with Petitioner’s ethics complaints
filed against the Cowan defendants since 2004. Based on a conflict of interest with
his state duty to Petitioner, Supple could never accept retainer defendants in this
case. However, pursuant to NY’s Judiciary Law Parts 1240. 6 and 1240.18 Supple
and H&C were required to withdraw or be disqualified by the district court no later
than October 1, 2016.
22 Petitioner’s EDNY damages lawsuit against Supple and H&C for losing her
infringement claims in this lawsuit has been pending for two years. 19-cv-4937
(EDNY) and is now the proper subject of mandamus relief by the Second Circuit.
The EDNY has not decided Petitioner’s default motion pending since October 2019.
Five NY agencies including NYS Thruway, and the Port Authority (JFK and
Newark Liberty Airports) have since taken Petitioner’s patents with venture
partners without payment of just compensation in violation of the Fifth
Amendment.
24

const-itut-ional-rightST—

VI. SPLIT IN THE LAW
Contrary to US Supreme Court decisions, the Federal Circuit
takes the position that the duty to issue mandamus orders against a
district court during a patent case is not a jurisdictional matter. Cf:
Christianson v. Colt Industries Operating Cory., 486 US 800
(1988)(Brennan, J.) and In re Innotron Diagnostics, 800 F. 2d 1077,
1080 (Fed. Cir. 1986) see also, La Buy v. Howes Leather Co., 352 US
249, 255 (1957) The Federal Circuit law is that if mandamus orders
would not be “in aid of its arising jurisdiction” at the end of the case,
in certain circumstances, it need not adjudicate mandamus petitions
during the case.
In part, the Supreme Court disagrees. In Christianson, supra,
Justice Brennan made clear that only a well-pleading complaint filed
under 28 USC §1338 (as opposed to a well-pleading counterclaim filed
in response to an antitrust lawsuit from an infringer), will bequeath the
Federal Circuit with mandatory “arising under” jurisdiction at the end
of the case. Based thereon, the Supreme Court’s position is that there
are situations where a local circuit court has both the duty and power to
issue interlocutory mandamus orders for a district court’s usurpation of
duties or failure to adjudicate essential motions, but only when a partylitigant has no other remedy at law. This is how the Supreme Court
reconciles the Federal Circuit’s denial of mandamus relief in cases
where the relief sought is not in aid of its exclusive arising under
25

-QiV)fie]:la^e^\iTisdictkm-7—See,-also-La-Buy-u,-Howes^Leather Co.. 352 US
249, 255 (1957).
The use of mandamus has in fact been expanded by the circuit
courts in certain situations when they find it necessary to impose
supervisory regulations against a district court for ongoing breaches of
power and failing to act when it must. Ibid. Because interim orders
may violate the final judgment rule, however, the result has been a vast
inconsistency and a split in reported cases, particularly those that
involve mandatory disqualification of opposing counsel in combined
antitrust and patent cases. 23

The Federal Circuit’s position is that it makes no sense for a
patentee to be plagued with a different and potentially adverse legal
result should the patentee elect to file a counterclaim instead of a
separate lawsuit or amended complaint seeking infringement damages.
In re Innotron Diagnostics, 800 F. 2d 1077, 1080 (1986). The Federal
Circuit has in fact found it is in the proper discretion of the district
courts to consolidate two antitrust and infringement lawsuits between
the same parties and the order of consolidation will rarely, if ever, be
overturned by mandamus or on appeal. Ibid.

Conflicting policies notwithstanding, this Honorable High Court
23 No matter the extent of potential prejudice, unless breach of confidential
privileged communications are at bar, some courts find the issue of disqualification
of opposing counsel should be heard at the end of the case. Spalding Sports
Worldwide v. Wilson. 203 F. 2d 800 (Fed Cir. 2000)
26

-m-u^t-respect£ullv-s&e-that-dur.ing_the pendency of a combined antitrust
and infringement case and particularly if the patentee is a Pro Se
litigant expecting an issued patent during the case, the patentee has no
crystal ball to be able to predict if a district court will deny a properly
filed amended complaint seeking infringement damages post patent
issuance during the lawsuit. In this situation, the national cases cannot
be reconciled at all. However, the liberal pleading rules of the Second
Circuit - including in patent cases - establish that during this 13-year
wrenching litigation, the SDNY usurped its duties to Petitioner
multiple times and that the Second Circuit was required to grant
mandamus relief to vacate certain procedural orders not in aid of the
Federal Circuit’s arising under jurisdiction, much earlier in the case,.
Plus, the Second Circuit had the duty under its own liberal pleading
rules to order mandamus against the district court to adjudicate the
amended infringement and could do so even post judgment. Grant
Williams v. Citicorp, 659 F. 3d 208 (2d Cir. 2011)

In the instant litigation, arising under appellate jurisdiction in
favor of the Federal Circuit at the end of the case was always a given
and both the district court and the Second Circuit usurped their
designated powers in denying Petitioner constitutional access to the
court during the case since remand from the Second Circuit in 2012 to
protect her patents. However, certain mandamus orders such as to
reverse the sua sponte grant of withdrawal by the district court to
Petitioner’s attorney Squitieri in 2010 could have been ordered.
There is no dispute that Petitioner was the victim of antitrust
27

'violationsrunfair-Gompetition—and-willful-patent-infringement-by--------defendant Live Nation since 2005. In 2007, it was importing
Petitioner’s proprietary ticketing technology with ETS Eventim of
Germany. Petitioner’s US ticketing and content management patents
were anticipated and were always expected to issue during the case.
They did issue in October 2009, five months after the first notice of
appeal was filed in May 2009; and just two months after Petitioner was
binding arbitration against the Cowan defendants on August 4, 2009,
after the case was already prematurely closed for four months.
Petitioner’s pending early applications were unlawfully
abandoned by the Cowan defendants as Live Nation’s agent in 2003
based on conflicts of interest admitted to the USPTO. Two patent
applications went abandoned on the docket in 2003 and had to be
revived and one patent reissued, delaying injunction and formal
enforcement rights against defendant Live Nation until October 13,
2009. In the interim, Petitioner had to protect the four-year statute of
limitation on Live Nation’s separate antitrust violations and continuing
false advertising torts that were confirmed by the Dept, of Justice along
with defendant Live Nation’s significant NY contacts, during the 20092010 merger proceedings with Ticketmaster. 24
The first patents that did ultimately issue to Petitioner on October
24 The USPTO never granted the Cowan defendants unilateral withdrawal after
Cowan’s two attempts to withdraw in May 2003 and February 2007 because of
contumacious defiance of practitioner conflict of interest statutes. 37 CFR 2.10,
2.19,10.66 11.116, 1.36, 1.324
28

-l-37-2O09rwe re -the -s ame -disclosures-already-notice d-to-defe ndant-Live—
Nation as being willfully infringed since 2005. When the first patent
did issue and Petitioner filed an amended complaint immediately that
was docketed and date stamped with a Rule 60(b) motion on April 22,
2010, both were required to be adjudicated. Instead, they were deleted
sua sponte from the docket. On January 25, 2010, the DC District
Court and Dept, of Justice confirmed jurisdictional fraud by Live Nation
in this lawsuit in denying its significant NY contacts to avoid being
forced to answer for crimes against this Petitioner.
Therefore, on every ground, Petitioner’s docketed amended
infringement complaint and Rule 60(b) motions could not be sua sponte
dismissed by the district court in 2017 and especially not based on
moving papers filed by attorneys who were never legally permitted to
appear on behalf of defendants. In fact, more than 200 documents
including notices from defendant Live Nation to Petitioner that
defendant was using her patents because “patents could be used by
anyone” and that the Cowan defendants were “following the client’s
instructions” were in the district court file and in the Second Circuit
appeals records, along with Live Nation’s false press releases
advertising a false a monopoly on distributing live concert recordings.
The composite of the documents before the Second Circuit in previous
appeals clearly demonstrates willful infringement and Petitioner’s right
to recover of treble damages back to 2004. If Petitioner is forced to file
a new infringement lawsuit, only six years of relate back damages are
recoverable and already more than fifteen years of patent protection
29

-have-been-forfei-ted-and-will-coHtrinue-tG-be-lost-because-defendant-Liv-e
Nation has changed its business model to get around Petitioner’s
patents. SCA Hygiene Product Aktiebolas v. First Quality Baby
Products, 137 S.Ct. 954 (2017). Petitioner is also a Pro Se litigant and
was required to be granted reasonable accommodations by the federal
courts in NY, not railroaded out of the court. Erickson v. Pardus, 551
US 89 (2007)
In contumacious defiance of the law, the SDNY also ordered
Petitioner to pay for a special patent master and deposit $10,000 into
the court cashier in 2015, which Petitioner did, but then the court still
sua sponte dismissed Petitioner’s amended complaint and denied
Petitioner’s cross-motion on summary judgment. The amended
complaint was in full compliance with Form 18 of the Appendix to the
Federal Rules of Civil Procedure and could not be sua sponte dismissed.
K-Tech Telecommunications v. Time Warner Cable, 714 F. 3d 1277 (Fed.
Cir. 2013).
In addition, Petitioner’s discovery requests for signed subpoenas
to compel unprivileged documents from the USPTO based on Cowan
defendants’ patent filings were ripped out of the file room by Hinshaw’s
attorney Supple. Emails in Petitioner’s possession include defendant
Cowan’s admissions that they were “following the client's instructions".
Since the case was closed prematurely for the second time by the
district court in July 2017 and reconsideration denied in September

30

-201-7-ife-was-ba-Hdied-ba€k-and-forth-between-the-Second_Circuit.and_the.
Federal Circuit for four years. Each appeals tribunal contends the
other court had the duty to issue writs of mandamus earlier in the case
based on clear usurpation of procedural powers by the district court.

The Second Circuit then dismissed Petitioner’s second appeal in
2018 and did not transfer the appeal to the Federal Circuit in response
to Petitioner’s motion pursuant to 28 USC §1631. On June 23, 2020, the
Federal Circuit found on mandamus that the Second Circuit abused
discretion in deciding the 2017 appeal without jurisdiction because it
was an arising under appeal at that time and based on the law of the
case, sent the case back for the Second Circuit to grant mandamus
orders still owed to Petitioner under law of the case.

The Second Circuit then issued an order on January 8, 2021, and
mandate on April 1, 2021, that “mandamus will not suffice for an
appeal” and closed the case prematurely for the third time. The Court
having been petitioned for reconsideration on the ground that Petitioner
is not a practicing attorney in NYS nor a patent attorney and cannot be
held to the standard of an attorney in this case was never adjudicated,
has been an attorney in practice in NYS and closed the case. The
Second Circuit continued to deny mandamus relief to Petitioner and
was already found to have to have exceeding its appellate jurisdiction in
improperly deciding the 2017 appeal and not transferring the case at
that time to the Federal Circuit, resulting in the instant Petition.

31

-VIL MEMORANDUM OF LAW
The prevailing law of the US Supreme Court on mandamus orders
owing against the district courts in combined antitrust and patent cases
was established by Justice Brennan in 1988 in Christianson v. Colt
Industries Operatins Coro., 488 US 800 (1988) Most respectfully,
Christianson requires revisitation in the advancing technology market
and instant case is a perfect vehicle to address the split in the courts to
the extent that it implicates inconsistent national decisions emanating
from La Buy v. Howes Leather Co., 352 US 249, 255 (1957).
A premise of Justice Brennan’s decision is that no patentee should
have to wait four years for two appeals courts to pay “ping pong” and
deny an appeal and/or mandamus relief to a patentee. According to
Justice Brennan, however, the Federal Circuit only has exclusive
arising under appellate jurisdiction in a patent litigation under 28
USC§ 1295 if a “well pleaded complaint” and not a well pleading
counterclaim arises under the patent laws or is defined by patent
statutes. Therefore, if a counterclaim is filed seeking infringement
damages instead of a new lawsuit or an amended complaint, then, and
only if the patentee has no other remedy at law, may the circuit court
properly grant mandamus orders based on the district court’s
usurpation of duties in deciding essential procedural motions during the
case.
The Federal Circuit’s position is to the contrary, i.e., that it should
make no difference if a patentee files a counterclaim, amended complaint
32

-or-a-separate-lawsuit,-beGause-in-theor-.y:,-the-legaLresult.should_be_the.
same in each instance. In re Innotron Diagnostics, 800 F. 2d 1077, 1080
(1986). However, the Federal Circuit will also not grant mandamus relief
against a district court unless the orders are “in aid of’ its arising under
jurisdiction at the end of the case.
In In re Innotron Diagnostics, 800 F. 2d 1077, 1080 (Fed. Cir.
1986) the Federal Circuit iterated its mandamus policy in combined
antitrust and patent cases. The analysis begins with acknowledgment
that statutory grant of jurisdiction to each of the regional courts of
appeal pursuant to 28 USC §1294 provides appellate jurisdiction over
judgments of district courts located within its geographical circuit
“[ejxcept as provided in Sections 1292 (c), (d) and 1295.”
With respect to district courts, the grant to the Federal Circuit is
found in 28 USC §1295(a)(l), (a)(2), which provide appellate jurisdiction
over judgments of any district court when the jurisdiction of that court
was based, in whole or in part on 28 USC §1338 or §1346 (The Little
Tucker Act) respectively, and in §1295 (a)(4)(C) when the action was
filed in the district court as authorized in 35 USC §§ 145, 146.
Mandamus is properly employed “to confine an inferior court to a
lawful exercise of its prescribed jurisdiction or to compel it to exercise
its authority when it is its duty to act.” Roche v. Evaporated Milk Assn,
319 US 21, 26 (1943) see also Bankers Life & Casualty Co., v. Holland.
356 US 379, 382 (1953) However, the regional courts of appeals have

33

4nereasingly-e x-te-nded-applications~and-e.mploye d_the_writ in__________
implementing their supervision of district courts. See Annot., 57 L. Ed.
2d 1203 (1979); Note, Supervisory and Advisory Mandamus under the
All Writs Act, 86 Harv. L. Rev. 595 (1973).
Use of mandamus in exercising supervisory authority has in fact
been approved “in certain circumstances” by the Supreme Court. La
Buy v. Howes Leather Co., 352 US 249, 255 (1957). In La Buy, however,
the Court was dealing with a court having appellate jurisdiction over
judgments of district courts whose location is within its circuit, 28 USC
§ 41, not with the Federal Circuit, whose appellate jurisdiction over
judgments of district courts is determined by the basis for the district
court’s jurisdiction. Thus, the key phrases useful to the Federal Circuit
\

in determining whether that Court will entertain petitions of
mandamus against a district court are those cases where granting the
writ is both “in aid of its jurisdiction” pursuant to 28 USC §1651 and to
the Supreme Court’s reference to “in proper circumstances” in La Buy.

“In Aid of Its Jurisdiction”
Where the Federal Circuit would have jurisdiction over an appeal
from a final judgment of the district court, it has power under §1651 to
overturn a district court order that would prevent that appeal or would
otherwise frustrate this court’s exercise of its proper jurisdiction. In re
Innotron Diagnostics, 800 F. 2d 1077, 1080 (1986). This is clearly the
instant case. The order of the SDNY sua sponte dismissing

34

PeMt7ieHer-s-amended-strict-liability-infriD.gement,complaint post patent
issuance and cross-motion for summary judgment under 35 USC §§271,
284, 285, 286 and FRCP Rule 56 bequeathed the Federal Circuit with
mandamus power “in aid of its jurisdiction” based on usurpation of
procedural powers by the district court that met the definition. A
problem is that the district court entertained summary judgment orders
from defense attorneys required to be disqualified under state law prior
to the date of the briefing. Then, the Second Circuit improperly heard
and failed to transfer the appeal pursuant to Petitioner’s 28 USC §1631
motion and closed the case. The Federal Circuit then being petitioned
for mandamus agreed the Second Circuit exceeded its jurisdiction and
abused discretion both by not transferring the case and hearing the
appeal. The Second Circuit’s rules allow an amended pleading post
judgment by mandamus. Grant Williams v. Citibank, 659 F. 2d 208 (2d
Cir. 2011). There is the additional fact that a multitude of sua sponte
orders were entered by the district court. Orders that implicate the
constitutional rights of litigants, can never be granted sua sponte. See,
e.g., Link v. Wabash R. R. Co., 370 US 626, 630-631 (1962).

In mandamus cases involving combined antitrust and patent
claims, the Federal Circuit is often troubled - as it was in this case - by
certain petitions seeking to overturn district court orders that would not
necessarily frustrate the Federal Circuit’s appellate jurisdiction. Such
petitions may be placed into three categories: (1) those implicating
responsibilities of regional circuit courts for supervising, administering,
overseeing, and managing the courts within the circuit (e.g., assignment
35

I. >

-efyudgesradjustmenCof-Galendars,4ransfer-of-case4;o-anotheiuiistr.ict,_
reference to master); (2) those that arise in all types of cases, but do not
directly implicate the patent or Little Tucker Act doctrinal
jurisprudence of this court (e.g., mandatory disqualification of opposing
counsel); and (3) those that do directly implicate, or are intimately
bound up with and controlled by, the patent and Tucker Act doctrinal
jurisprudential responsibilities of the Federal Circuit (e.g., separate
trial of patent issues; refusal to apply 35 USC §282; court-ordered tests
for utility, and sua sponte dismissal of an anticipated amended
infringement complaint post patent issuance during the case). The
instant case is a combination of (2) and (3), causing four years of
bandying between two circuit courts. However, in the instant case, the
SDNY even hired a special patent master and made Petitioner pay
$10,000 into the district court cashier for that master, and still never
heard the patent claims demonstrating additional bias.
The Federal Circuit has in fact affirmatively disavowed
“supervisory” authority over the district courts. In so doing, it has
recognized that a writ would not be “in aid of its jurisdiction” if issued
on petitions in categories (1) and (2). The court might very well,
however, aid its jurisdiction (and its mission as well) when it issues a
writ in response to a petition in category (3). The instant case is an
overlap of (2) and (3), which is how Petitioner was deprived of essential
mandamus orders against the district court from both circuit and was
deprived of all constitutional access to protect her patents.

36

*'*

--------Form—l^AnAihe-Appendix-ofH-he-Federal-Rules^f-Givil-Proceduresets forth a sample complaint for direct patent infringement and
requires:
(1) an allegation of jurisdiction; (2) a statement that the plaintiff
owns the patent; (3) a statement that defendant has been infringing
the patent ‘by making, selling, and using [the device] embodying
the patent’; (4) a statement that the plaintiff has given the
defendant notice of its infringement; and (5) a demand for an
injunction and damages. McZeal v. Sprint Nextel Corp., 501 F. 3d
1352, 1357 (Fed Cir. 2007)
Form 18 in no way relaxed the clear principle of Rule 8, i.e., that a
potential infringer be placed on notice of what activity or device is being
accused of infringement.
As the Federal Circuit stated in McZeal, supra:
‘It logically follows that a patentee need only plead facts sufficient
to place the alleged infringer on notice as to what he must defend. See
Bell Atl. V. Twombly, 127 S. Ct. 1955, 1971 n. 10 (stating “[a] defendant
wishing to prepare an answer in the simple fact pattern laid out in Form
9 [in the Federal Rules of Civil Procedure] would know what to answer;
a defendant seeking to respond to plaintiffs’ conclusory allegations ...
would have little idea where to begin.”). Thus, a plaintiff in a patent
infringement suit is not required to specifically include each element of
the claims of the asserted patent. See, e.g., Phonometrics Inc., v.
Hospitality Franchise Systems, 203 F. 3d 790, 794 (Fed. Cir. 2000); 501
F. 3d 1352, 1357 (Fed Cir 2007)”.
There is no dispute that defendant Live Nation was put on notice
of infringement in 2005 by certified mail, return receipt requested, and
responded that “Petitioner’s patent could be used by anyoneDefendant
37

—Live-Nation-W-as-also^found to be importing infringing systems with
ETS Eventim of Germany in 2007 for use at is NYC venues. Clearly,
this defendant cannot be let out of this case based on jurisdictional and
in-court fraud and deceit by its attorneys who were required to be
disqualified by the court, not supported.

VIII. CONCLUSION
Because the Federal Circuit already found the Second Circuit
exceeded its jurisdiction and abused discretion in deciding the 2017
patent appeal and not transferring the case, in sending the case back,
the clear implication was that the Federal Circuit was ordering the
Second Circuit to exercise its powers and grant long-overdue mandamus
orders owing to Petitioner. That meant both ordering retroactive
disqualification of the attorneys who were never legal able to file
summary judgment motions in 2017 and vacating the summary
judgment orders ignoring the district court’s improper sua suonte
deletion of Petitioner’s amended complaint post patent issuance from
the docket.
Mandamus relief is long overdue in this case to prevent manifest
injustice and an egregious forfeiture to Petitioner. Mandamus to
amend the complaint is authorized by the liberal pleading rules of the
Second Circuit. That the ongoing procedural usurpations of power by
the district court were both committed during adjudications “in aid of’
and “not in aid of’ the Federal Circuit’s jurisdiction is the clear problem,
and this Honorable Court must iterate concrete standards to fix the law
38

4.

and-i-terate-the_proper.sequence of adjudications in close cases. K-Tel
Telecommunications v. Time Warner Cable, 714 F. 3d 1277 (2013)

WHEREFORE, based on the foregoing Petition and the
supporting orders and documents printed in the Appendix hereto,
Petitioner respectfully prays that a Writ of Certiorari issue against the
Second Circuit.
Dated: June 7, 2021
Respectfully,submitted,
//

)7
7
Amy R/ Gurvey
Patentee Pro Se
amygurvey @gmail.com
315 Highland Avenue
Upper Montclair, NJ 07043

.

K

i»

